AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No.
X

Michael Varco,
Petitioner,
v.

Robert J. Contee III, in his official capacity as Chief of the
Metropolitan Police Department,
Respondent.

STATE OF NEW YORK

V

X

)

COUNTY OF NEW YORK )
I, Candice Best, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 9th day of April, 2021,1 served the within Petition for Writ of Certiorari
in the above-captioned matter upon:
Loren L. Alikhan
Solicitor General - Counsel of Record
400 Sixth Street, NW, Suite 8100
Washington, DC 20001
Phone: (202) 727-6287
Email: loren.alikhan@dc.gov
Stacy L. Anderson
Senior Assistant Attorney General
Office of the Attorney General
400 Sixth Street, NW, Suite 8100
Washington, D.C. 20001
Phone: (202) 724-6625
Email: stacy.anderson2@dc.gov

RECEIVED
APR 13 2021

by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual.
That on the same date as above, I sent to this Court forty copies and 1 un-bound copy of
the within Petition for Writ o/through the United States Postal Service by Express Mail,

->

postage prepaid. In addition, the brief has been submitted through the Court’s electronic
filing system.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 9th day of April, 2021

Candice Best
Sworn to and subscribed before me this 9th day of April, 2021

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021
#303544

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859
www.counselpress.com

SUPREME COURT OF THE UNITED STATES
No.
X
Michael Varco,
Petitioner,
v.
Robert J. Contee III, in his official capacity as Chief of the
Metropolitan Police Department,
Respondent.
X
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4.962 words, excluding
the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on April 9th, 2021

Candice Best
Sworn to and subscribed before me
this 9th day of April, 2021

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

